App. 1

United States Court of Appeals
for the Fifth Circuit

No. 20-10715
Summary Calendar

UNITED STATES OF AMERICA,
Plaintiff—Appellee,
versus
Davin SETH WaTERS,
Defendant—Appellant.

 

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 2:19-CR-93-1

 

(Filed Apr. 27, 2021)
Before JOLLY, ELROD, and GRAVES, Circuit Judges.

PER CURIAM:*

Davin Seth Waters pleaded guilty, pursuant to a
plea agreement, to transportation of minors with in-
tent to engage in criminal sexual activity. He was

* Pursuant to 5th Circuit Rule 47.5, the court has deter-
mined that this opinion should not be published and is not prece-
dent except under the limited circumstances set forth in 5th
Circuit Rule 47.5.4.
App. 2

sentenced to life in prison. Waters asserts that his re-
liance upon misinformation from the prosecution and
defense counsel about the likely period of incarceration
rendered his guilty plea unknowing and involuntary.
Waters contends that the prosecutor and defense coun-
sel mistakenly believed that Waters’s admitted con-
duct in the factual resume with respect to additional
victims would not be taken into account when calculat-
ing the guidelines range and that he would likely be
sentenced to approximately 25 years in prison.

Waters did not argue in the district court that his
plea was unknowing or involuntary. Thus, our review
is limited to plain error. See United States v. Aluarado-
Casas, 715 F.3d 945, 953 (5th Cir. 2013). To show plain
error, the defendant must initially show a forfeited er-
ror that is clear or obvious and that affects his substan-
tial rights. Puckett v. United States, 556 U.S. 129, 135
(2009).

Here, the record reflects that Waters was advised,
and understood, that he faced a maximum possible
penalty of life in prison and that the district court had
sole discretion to determine his sentence. The plea
agreement did not include any specific sentencing
guarantees, and Waters affirmed at rearraignment
that his guilty plea was not the result of threats or
promises outside of those promises set forth in the plea
agreement. Waters’s “solemn declarations in open court
carry a strong presumption of verity.” United States v.
McKnight, 570 F.3d 641, 649 (5th Cir. 2009) (internal
quotation marks and citation omitted). Consequently,
Waters has failed to show that his guilty plea was
App. 3

unknowing and involuntary or that the district court
plainly erred in accepting his guilty plea. See Puckett,
556 U.S. at 135; see also United States v. Gracia, 983
F.2d 625, 629 (5th Cir. 1993); United States v. Young,
981 F.2d 180, 184 (5th Cir. 1992).

AFFIRMED.
